<html>
<title> - TURKEY: POLITICAL TRENDS IN 2016</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                    TURKEY: POLITICAL TRENDS IN 2016

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 3, 2016

                               __________

                           Serial No. 114-139

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                        U.S. GOVERNMENT PUBLISHING OFFICE
98-485PDF                      WASHINGTON : 2016                        
                      
________________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dcbbacb39cbfa9afa8b4b9b0acf2bfb3b1f2">[email&#160;protected]</a>  
                    
                      
                      
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
TED POE, Texas                       GREGORY W. MEEKS, New York
TOM MARINO, Pennsylvania             ALBIO SIRES, New Jersey
MO BROOKS, Alabama                   THEODORE E. DEUTCH, Florida
PAUL COOK, California                WILLIAM KEATING, Massachusetts
RANDY K. WEBER SR., Texas            LOIS FRANKEL, Florida
REID J. RIBBLE, Wisconsin            TULSI GABBARD, Hawaii
DAVID A. TROTT, Michigan
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Nate Schenkkan, project director, Nations in Transit, Freedom 
  House..........................................................     5
Mr. Ali Cinar, president, Assembly of Turkish American 
  Associations...................................................    16
Gonul Tol, Ph.D., director, Center for Turkish Studies, Middle 
  East 
  Institute......................................................    27

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Nate Schenkkan: Prepared statement...........................     7
Mr. Ali Cinar: Prepared statement................................    18
Gonul Tol, Ph.D.: Prepared statement.............................    29

                                APPENDIX

Hearing notice...................................................    56
Hearing minutes..................................................    57
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    58

 
                    TURKEY: POLITICAL TRENDS IN 2016

                              ----------                              


                      WEDNESDAY, FEBRUARY 3, 2016

                       House of Representatives,

         Subcommittee on Europe, Eurasia, and Emerging Threats,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:12 p.m., in 
room 2172, Rayburn House Office Building, Hon. Dana Rohrabacher 
(chairman of the subcommittee) presiding.
    Mr. Rohrabacher. Okay. The subcommittee's first hearing of 
the new year is called to order. To mark this occasion, I can 
think of no more fitting subject for us to focus on than 
Turkey. As we watch the turmoil in Syria and the displacement 
of millions of civilians, no one needs a reminder about the 
vital place Turkey holds on the world stage. Any lasting 
solution in that part of the world must involve Turkey.
    However, our hope is that Turkey is not only stable and 
peaceful, but also democratic and secular as well, with a 
strong and independent civil society and a government that 
upholds fundamental freedom.
    Things are changing in Turkey, and today we ask, are those 
changes for the better or for the worse? President Erdogan and 
his party, the AKP, after well over a decade in power, failed 
to secure a majority of seats in the Parliament during the 
elections last June. The pro-Kurdish HDP attracted a cross 
section of secular Turks and Kurdish voters and entered 
Parliament as the fourth major political party.
    Yet following that election, no party was able to build a 
coalition and form a government, so in November, a second round 
of voting took place, and the AKP regained its majority. 
Unfortunately, that may reflect the AKP's appeal to the Turkish 
nationalists over renewed fighting, and I say it is unfortunate 
if this is the reason why they are still in power is because 
there has been renewed fighting, and Turkey may become a more 
polarized rather than being elected because we have done a more 
harmonious job. We will be asking our witnesses to comment on 
that.
    During today's hearing, I hope to discuss how these 
elections, and the shifting domestic political environment 
within Turkey, will play out over this coming year. What about 
reports of a crackdown on independent journalism and 
journalists? How will the latest PKK Turkish fighting affect 
events in Syria? And how will it affect the people who live in 
Turkey?
    As I stated during this subcommittee's previous hearing on 
Turkey, our discussions and our comments, and even our 
criticisms of the Turkish Government, are predicated on a deep 
respect for the Turkish people and a deep respect for the 
Turkish nation and the role that it has played over the last 
century. That said, sometimes friends, and that is what the 
United States and Turkey are, we are friends, but friends need 
to speak plainly to one another about problems and about 
challenges that they both face.
    There is a reason for concern. President Erdogan's 
continuing effort to empower his office by passing a new 
constitution and creating a powerful, Turkish-style 
Presidential system is harmful to Turkish democracy. Some of 
his policies at home and abroad raise alarm bells, and there 
should be people paying attention to disturbing reports of what 
appears to be abuses of power.
    The natural ebb and flow of democracy in Turkey is being 
impacted by Erdogan's extension of his already historically 
long-term epicenter of power in his country. Recent actions 
against the Kurds appear to indicate a violent strategy based 
on military action.
    That is not the way that we are going to build a more 
peaceful region, is it? Or, perhaps, it is perhaps not the way 
you bring peace to your country is basing your, how you say, 
basing the common good and basically the tranquility of your 
country on military action and fear.
    So today, we are interested in talking to our witnesses, 
seeing what they have to say about these, as I say, trends of 
concern about Turkey, and with that, I would turn to my ranking 
member and see if he has an opening statement.
    Mr. Meeks. Thank you, Mr. Chairman, and thank you for 
organizing today's subcommittee's hearing on the political 
trends in Turkey, who is one of our most important allies in an 
increasingly complicated region. And I am especially grateful 
for the opportunity to look at the domestic situation which 
drives Turkey's foreign policy.
    While President Erdogan enjoys strong support, the Kurdish 
nationalists rooted HDP was successful in achieving a voice in 
Parliament. That is a good thing. That is democracy. Much of 
the concern of the international observers, however, we have 
been informed that the Kurdish message has been suppressed by 
the ruling party, and as someone who represents the minority 
voice in government, here the minority party, also as an 
African American, where we feel voices are not heard, I am 
deeply concerned with how Turkey will find a peaceful political 
resolution to the Kurdish question.
    I always equate what is going on someplace else with what 
we did and what happens in the United States of America, and I 
think one of the keys in the 1960s with the issues of African 
Americans, for example, and the genius of Dr. King working with 
the government was there was a peaceful resolution to the 
question of African Americans that we still are dealing with.
    Clearly, one cannot completely separate domestic Turkish 
issues from international concerns. For example, Turkey has 
been doing a commendable job in housing over 2.5 million Syrian 
refugees. Turkey is taking in those families fleeing Assad's 
bombs and ISIS' repossession--repression, while other 
countries, including the United States, are reluctant to do so.
    In this effort, Turkey is carrying the world's burden in 
the face of evil and addressing a grave humanitarian crisis, 
and while Germany and the EU seek a more cooperative 
relationship with Turkey, today's congressional hearing is an 
important examination of the nature of our relationship with 
Turkey.
    During Vice President Biden's recent trip to Turkey, he 
rightly stressed the importance of a values-based approach to 
our cooperation with Turkey, both bilaterally and within NATO. 
We, in the United States Congress, are concerned with the 
democratic progress in Turkey. Tolerance in the face of 
domestic criticism is difficult, and regional events further 
complicates the situation. Believe me, I know. But 
nevertheless, we fully defend the fight for academic freedom, 
for freedom of the press, and for the right of individuals to 
criticize their governments as well as it may--as hard and as 
difficult as it may be to hear. People should have the right to 
voice those concerns.
    As we all know too well in America, suppressing these 
voices only leads to an erosion of democracy and then 
eventually to violence. And as violence spreads across 
southeastern Turkey, we are reminded of the delicacy of the 
balance between security and liberty. Tragically, they are not 
isolated incidents. They serve to highlight the need of a path 
to peace between the government and the Kurdish forces.
    What could that path look like? Should and will the 
constitution be changed to accommodate such a process? Turkey's 
democratic progress in the region is essential for our shared 
ideas, and today's conversation about the domestic situation in 
Turkey may be difficult, but it is essential for our 
understanding.
    We need to, I think, as Members of Congress, to try to 
really understand what is taking place on a domestic basis on 
the ground in Turkey, just as I am sure that some need to 
understand, on a domestic basis, what is taking place here in 
the United States as we are getting involved in our political 
system in our Presidential election.
    So, I thank the chairman for this hearing because we want 
to learn and understand so that we can make sure that we are 
working collectively for democracy and working collectively to 
stomp out those who are threats to us all.
    Thank you, Mr. Chairman. I yield back.
    Mr. Rohrabacher. We appreciate your very substantive 
remarks that you set us and inaugurated this hearing with.
    Mr. Cicilline, I understand, has a short opening statement 
as well.
    Mr. Cicilline. Thank you, Chairman Rohrabacher and Ranking 
Member Meeks, for calling this important and timely hearing. 
The issue of Turkey, its political atmosphere, and its role in 
the region is critically important. A key ally in the fight 
against ISIS and Syria, Turkey has its own internal political 
dynamics that are driving its overall military policy. A key 
factor in this is Prime Minister Erdogan and the AKP's 
relationship with the Kurds and other minorities.
    Erdogan's decision to abandon the peace process with the 
PKK and undertake a harsh crackdown against Kurds, including 
civilians, is extremely disturbing. Since July, approximately 
230 civilians have been killed during the campaign by the 
Turkish Government. Tens of thousands of people have been 
forced from their homes, and the Turkish military has 
essentially created a war zone within the Kurdish part of 
southeast Turkey.
    Kurdish political leaders have been rounded up and 
imprisoned without due process, and there has been a widespread 
crackdown on media and civil society. In line with its 
targeting of religious and ethnic minorities, Turkey has also 
continued its policies of antagonizing Armenia by supporting 
Azerbaijan in the conflict in Nagorno-Karabakh.
    Sadly, the Turkish Government continues to deny the very 
well-established history of genocide against the Armenian 
people. Turkey certainly has the right to protect itself from 
terrorism, but we should all be alarmed by the antidemocratic 
tactics that Turkey has been using against the Kurds, other 
minorities, and most widely, against Prime Minister Erdogan's 
perceived critics.
    Turkey was once solidly on the path to democratization, and 
I fear that it has strayed so far that it may not be able to 
recover. And while the United States must continue to support 
Turkey in the fight against ISIS and its absorption of 
refugees, we do it at our own peril if we let the issues of 
democracy and human rights fall by the wayside.
    So I look forward to working with my colleagues on these 
issues and hearing the testimony of our witnesses today, and 
thank you again, Mr. Chairman, for the courtesy. I yield back.
    Mr. Rohrabacher. And we appreciate your presence with us 
today. The witnesses will proceed, and--following my 
introduction, and I would just request that if we could, again, 
have your actual written testimony presented but keeping your 
remarks down to about 5 minutes.
    First we have with us, and I will introduce all of the 
witnesses. Nate, and pronounce--please forgive me if I 
mispronounce your name. Schenkkan?
    Mr. Schenkkan. Schenkkan.
    Mr. Rohrabacher. Nate Schenkkan is the Freedom House 
project director for their annual Nations in Transit report. He 
previously served as senior program officer for Freedom House's 
Euro/Asia program, which covers Turkey and Central Asia.
    Ali Cinar is executive vice president of the Turkish 
Heritage Organization, a nonprofit group established to promote 
dialogue around Turkey's role in the world and the U.S.-Turkey 
relationships.
    And finally, Dr. Gonul Tol, got it, okay, is the founding 
director of the Middle East Institute's Center for Turkish 
Studies and an adjunct professor at George Washington 
University. She has written about Turkey extensively and 
frequently appears in the media. She has earned her Ph.D. From 
Florida International University.
    And Nate, you may proceed.

 STATEMENT OF MR. NATE SCHENKKAN, PROJECT DIRECTOR, NATIONS IN 
                     TRANSIT, FREEDOM HOUSE

    Mr. Schenkkan. Thank you. Chairman Rohrabacher, Ranking 
Member Meeks, and members of the subcommittee, it is an honor 
to testify before you. I ask that my full written testimony be 
entered into the record.
    Mr. Rohrabacher. Without objection.
    Mr. Schenkkan. I last appeared before this subcommittee in 
July 2014 to speak then about the future of Turkish democracy. 
I described how the government led by then-Prime Minister Recep 
Tayyip Erdogan pursued an aggressive society-wide crackdown on 
dissent in response to the Gezi Park protests of June 2013 and 
the corruption cases against the government in December 2013.
    Since that time, the situation for democracy and freedom of 
expression in Turkey has significantly worsened, and most 
significantly, the government has returned to open conflict 
with the PKK in July 2015, which has resulted in the deaths of 
at least 230 civilians inside Turkey and 230 Turkish security 
forces, while the President says that the state has killed 
3,000 PKK militants.
    The Islamic State's suicide bombers during this time have 
killed another 135 Turkish citizens and 11 foreign visitors to 
Istanbul.
    The return to conflict is, in significant part, the result 
of leaving the war in Syria to fester. This has emboldened 
radical parts of the Kurdish movement in Turkey by showing that 
violence can achieve autonomy, and it has strengthened the 
position of Turkish nationalists in Turkey.
    Turkish members of the Islamic State, who have traveled 
frequently to Syria, have entered the fray and are trying to 
widen this cleavage. In these context, President Erdogan, and 
the AKP took what I believe is a cynical decision, in July, to 
return to war with the PKK to strengthen their position in the 
November 1 repeat parliamentary elections.
    This decision has played into the hands of hardliners 
within the PKK that are threatened by the success of the HDP, 
the Kurdish Movement Party, which promotes nonviolent 
integration into the Turkish state in order to realize Kurdish 
rights.
    The conflict is having terrible consequences. There is the 
horrific civilian death toll that I mentioned. There have been 
at least 62 day and night curfews for military operations since 
July, including some lasting up to 2 weeks, and some that are 
going on now. Tens of thousands of people have been forced from 
their homes, and the military is using tanks and heavy weaponry 
inside of Turkish cities.
    At least 22 HDP members of Parliament are under criminal 
investigation, as is the HDP mayor of Diyarbakir. Dozens of 
local officials from the HDP and other Kurdish parties have 
been arrested, including 18 co-mayors. Last week, prosecutors 
requested at least 7 years imprisonment for the mayor of 
Mardin, Ahmet Turk, who was one of the elder statesmen of the 
Kurdish movement in Turkey.
    These are the people on whom the peace process relied, and 
without them, it will be impossible to end the cycle of 
conflict. This crackdown comes on top of one that was already 
taking place on media and civil society. The government has 
branded the Gulen movement officially a terrorist organization, 
and is persecuting it relentlessly after the movement helped 
launch the December 2013 corruption investigations.
    The newspaper Bugun and the TV stations Bugun and Kanalturk 
were seized immediately previous to the November 1 
parliamentary election. There are over 108,000 Web sites 
blocked in Turkey, many of these now increasingly are Kurdish 
Web sites or Web sites linked to the Gulen movement, like the 
magazine Nokta.
    In the last quarter of 2015 alone, there were 93 cases for 
insult and violation of personal rights of President Erdogan, 
including against 42 journalists. That is practically one per 
day.
    In 2015, 19 journalists and two cartoonists received prison 
sentences for insulting President Erdogan or other high 
officials. The editor-in-chief and the Ankara bureau chief of 
the country's oldest newspaper, Cumhuriyet, are facing possible 
life sentences for reporting on the National Intelligence 
Agency's use of humanitarian convoys to smuggle weapons into 
Syria.
    I have two recommendations. The Turkish Government's 
attempt to destroy the Kurdish movement inside Turkey, which 
is, I believe, what is happening, is counterproductive not only 
to peace in Turkey, but to the efforts of the United States to 
bring an end to the crises in Syria and Iraq. The conflict in 
Turkey is contributing to deepening radicalization of Kurds in 
Turkey and in Syria, and foreclosing a possibility that Turkey 
will be able to coexist with a stronger Kurdish presence in 
northern Syria, which is an inevitable outcome of any end to 
this crisis.
    The U.S. should call on its political capital, both with 
the Government of Turkey and with the Kurdish movement in Syria 
to bring about a ceasefire in Turkey and to return to the peace 
process.
    Second, when I testified in 2014, I advocated a strong U.S. 
emphasis on EU membership for Turkey in order to encourage 
progress on human rights. I must admit such a policy now seems 
untenable. Despite a superficial commitment to EU accession, 
the current government has repeatedly and directly rejected the 
requirements of EU membership in the areas of human rights and 
rule of law.
    They EU's decision this fall to trade Turkish cooperation 
on stopping refugee flows in exchange for a supposedly 
reinvigorated accession process has discredited membership by 
making it a matter of quid pro quo instead of a matter of 
political and economic convergence.
    Advancing Turkish accession to the EU at the expense of the 
EU's human rights principles has exposed the EU as cynical and 
shortsighted and has undermined its greatest strength as a 
rules-based, values-driven institution. Thank you.
    [The prepared statement of Mr. Schenkkan follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
                              ----------                              

    Mr. Rohrabacher. Mr. Cinar.

  STATEMENT OF MR. ALI CINAR, PRESIDENT, ASSEMBLY OF TURKISH 
                     AMERICAN ASSOCIATIONS

    Mr. Cinar. Dear Mr. Chairman and subcommittee members, 
thank you for giving me the opportunity to be here today. As an 
American with a Turkish descent and a longtime community 
leader, I am honored to be one of the witnesses of ``Turkey: 
Political Trends in 2016.''
    Mr. Chairman, I would like to summarize my written 
statement. I believe 2015 was an extraordinary year in U.S. and 
Turkish relations. Whether it was in foreign or domestic 
policy, economy or military, there was no shortage of critical 
developments and cooperation between two nations.
    Just to give you an example, over the past 12 months, the 
U.S. and Turkey have continued to work together to fight ISIS, 
provide assistance to 2.2 million Syrian refugees living in 
Turkey, and strengthen economic cooperation during the G-20 
summit. Most recently, the U.S., along with other NATO-ally 
countries, stood behind Turkey in downing of Russian's fighter 
jet that violated Turkish airspace in November 2015.
    I believe it is important to emphasize that most of these 
critical developments took place at a time when Turks were 
experiencing critical domestic challenges. Results of free, 
fair, and peaceful second election showcased the strength of 
the democratic process in Turkey. Despite their differences on 
various issues, the U.S. was in need of a strong and secure 
Turkish Government that was, first and foremost, ready to 
cooperate in the campaign against ISIS and play a critical role 
in Syria.
    Having put all these developments behind it, I would like 
to briefly highlight Turkey's priorities in 2016. National 
security. For over 30 years, Turkey has confronted violence by 
a militant terrorist group known as Kurdistan Workers Party, 
PKK. During this time, more than 40,000 lives have been lost in 
Turkey. PKK attacks have, once again, flared up in Turkey since 
July 11, 2015, when the PKK announced the end of the ceasefire 
that had existed for 2\1/2\ years.
    Some were attempting to mischaracterize recent events as 
Turkish hostility toward all Turks. However, the reality is far 
different. Ethnic Kurdish citizens of Turkey are an integral 
part of the nation. Turkey established strong relations with 
the Kurdish regional government in the region, which are not 
limited to military support and financial aid.
    Honorable committee members and Mr. Chairman, I would like 
draw your attention to PKK's recent terrorist attacks. PKK and 
the Kurdish citizens in Turkey are totally different. 221 
Turkish security personnel and 89 civilians have been killed by 
PKK; 1,170 security personnel and 477 civilians have been 
wounded by PKK; 14 security personnel and 110 civilians have 
been kidnapped by PKK.
    In recent years, several Kurdish language television and 
radio stations have been established in Turkey, courses 
teaching Kurdish language and dialects have been created, and 
the Turkish Kurds have significant representation in the 
Turkish Parliament and elsewhere in the government.
    Presently, there are more than 120 parliamentarians out of 
550 of Kurdish origin in Turkish Parliament from various 
political parties. Most Turkish Kurds don't support PKK, which 
ended the ceasefire on July 2015.
    In addition to PKK, Turkey is threatened by ISIL, terrorist 
acts such as those in Suruc, Ankara, and Istanbul. Border 
security and control measures around the 511-mile border have 
improved significantly. It is my understanding that 
strengthening of this border security has always made important 
contributions.
    Humanitarian aid, according to the United Nations, Turkey 
shelters the largest number of refugees in the world. Total 
expenditures for Syrians is $7.6 billion, and rapidly edging 
toward 8 billion U.S. dollars. Turkey has announced it offers 
Syrian refugees work permits in order to encourage fewer of 
them to migrate.
    Freedom of expression and media constitutes an important 
pillar of human rights priorities for Turkey. It is a 
fundamental freedom guaranteed under the constitution and 
relevant legislation. Turkey is putting a series of 
comprehensive judicial reforms in line with both our 
international and European Union standards and principles for 
the protection and promotion of freedom of expression and 
media.
    In conclusion, Mr. Chairman and subcommittee members, I am 
optimistic about Turkey's future and U.S.-Turkish relations. I 
believe, starting this year, Turkey will begin to effectively 
address its domestic and foreign policy challenges, strengthen 
its global position.
    I believe that strong partnership and friendship, rooted 
with common values and interest, will be reinforced by the 
enduring links between the people of both countries, will 
continue to get stronger this year. I would like to thank you, 
again, Mr. Chairman and committee members, for giving me this 
opportunity.
    [The prepared statement of Mr. Cinar follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
                              ----------                              

    Mr. Rohrabacher. Thank you. And Dr. Tol.

  STATEMENT OF GONUL TOL, PH.D., DIRECTOR, CENTER FOR TURKISH 
                 STUDIES, MIDDLE EAST INSTITUTE

    Ms. Tol. Mr. Chairman, members of the committee, it is an 
honor to be invited to speak with you today.
    Mr. Rohrabacher. You need to move a little closer, please, 
and if it is on.
    Ms. Tol. It is on.
    Mr. Rohrabacher. Can you move it a little closer to you? 
There you go. Thank you.
    Ms. Tol. Mr. Chairman, I will summarize my statement now 
and submit the full text for the record.
    2015 was a difficult year for Turkey. The Islamic State 
launched three attacks inside Turkey, killing more than 140 
people and wounding hundreds. Journalists have been fired, 
detained, prosecuted, and physically attacked. Economic growth 
has slowed sharply, and several factors have left Ankara more 
isolated in its neighborhood.
    The ongoing chaos in Syria, Turkey's downing of a Russian 
jet, Ankara's deployment of troops in Iraq without the approval 
of Baghdad, joining a Sunni alliance with the Saudis to 
counterbalance Iran, but most concerning of all, however, is 
the ongoing conflict with--between the Turkish state and the 
PKK.
    A string of clashes in the mainly Kurdish region between 
the PKK and Turkish security forces has left hundreds, 
including women and children, dead since the 2-year-old 
ceasefire broke down in July. Areas of the Kurdish region have 
been subject to round-the-clock curfews since then.
    During state-imposed curfews, the wounded have been denied 
access to medical treatment, neighborhoods have had their water 
and electricity cut, and they have been left without access to 
food.
    For decades, Turkey's conflict with the Kurds has hindered 
Turkey's democratization. Neither Turkey's democratization nor 
the Kurdish quest for political rights have occupied an 
important place in U.S. policy toward Ankara and the Kurds. 
Turkey's democratic shortcomings have been ignored by U.S. 
administrations for the sake of greater geostrategic interests. 
In a similar fashion, Kurdish rights have been overlooked in 
the game of power politics.
    But as you mention, Mr. Chairman, today's regional context 
ties Turkish democracy and the peaceful resolution of the 
Kurdish conflict to U.S. security interests in the region. 
Turkey still considers the PKK and the PKK-linked PYD in Syria 
a bigger threat than the Islamic State. Therefore, Ankara has 
not played the effective role the United States has been 
seeking from its NATO ally in the fight against ISIS.
    Although Turkey has recently stepped up its effort to 
counter ISIS, at times, Ankara worked at direct odds with the 
U.S. anti-ISIS strategy by targeting Washington's most 
effective partner on the ground, the PYD. Turkey's refusal to 
engage with the PYD also complicates the U.N. talks on ending 
the Syrian civil war.
    Recently, Turkey has warned the United Nations and the 
United States that it will walk out of the political process if 
the PYD is involved, included among the opposition to the Assad 
regime, and the U.N. envoy decided not to invite the PYD to the 
meetings in Geneva.
    The exclusion of the PYD from future meetings is likely to 
complicate efforts to find a political solution as they are the 
most powerful Kurdish faction, controlling around 10 percent in 
Syria.
    If Turkey fails to find a peaceful resolution to its 
Kurdish question, Ankara will keep attacking the Kurds, 
rendering U.S. strategy against ISIS less effective and 
derailing the political process. The prospects for both the 
government and the Kurds to de-escalate the conflict, however, 
remain slim in 2016. Therefore, it is necessary for the United 
States to use its leverage over both parties to push for a 
ceasefire and a return to the negotiating table.
    The fighting is likely to intensify in the spring when more 
PKK militants return to Turkey from their winter bases in the 
mountains. Escalation of the conflict will deal a further blow 
to Turkey's democracy and harden ethnic identities on both 
sides, making it even more difficult to resume negotiations. It 
will also undercut U.S. efforts to counter ISIS, pursue a 
political solution to the conflict in Syria, and promote an 
inclusive government in Iraq.
    Without a rapid political solution to the Kurdish problem, 
Turkey will remain an ineffective partner in the fight against 
ISIS, derail future efforts to find a political solution to the 
Syrian conflict, and fail to play a constructive role in Iraq 
and the region. To secure Turkey's full cooperation in Syria, 
Iraq, and the fight against ISIS, the United States must use 
this leverage. Washington has leverage over the PYD and the 
PKK.
    U.S. cooperation with the PYD has been crucial for the 
group as it boosted the PYD diplomatically and militarily. 
Washington has influence over Ankara as well. After the crisis 
with Russia and the ongoing chaos on its doorstep, Turkey has 
rediscovered its Western allies. Turkey feels threatened by 
Putin's actions and values its NATO membership more than ever, 
which gives the United States more leverage over Ankara than it 
had a few months ago. The United States could use both Ankara's 
current vulnerability and isolation in its immediate 
neighborhood and several trust-building measures to secure 
Ankara's cooperation.
    As a trust-building measure, the U.S. could redeploy 
patriot missiles in Turkey. That would ease some of Turkey--
Ankara's security concerns stemming from Syria and show Ankara 
that the United States is committed to Turkey's security. 
Washington could also eliminate another sticking point in 
Turkey-U.S. relations.
    Turkey has long opposed engaging the PYD, arguing that it 
is linked to the outlawed PKK and that the PYD fights alongside 
the Assad regime. If Washington can convince the PYD to take a 
clearer stance against the Assad regime, it might be relatively 
easier for Ankara to drop its opposition to the PYD's 
involvement in the political process.
    The PKK sees the conflict in Turkey through the lens of the 
developments in Syria. The U.S.--the U.S.-PYD cooperation in 
Syria, therefore, is crucial for the PKK's strategic 
calculations. The United States could use that leverage to 
pressure the PKK to de-escalate the conflict, and that, in 
turn, could give Ankara a face saving way to de-escalate its 
heavy-handed military operations. Thank you.
    [The prepared statement of Ms. Tol follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
                             ----------                              

    Mr. Rohrabacher. Well, thank you all for your testimony 
today, and--so let me just ask the basic question of each of 
you. Is the situation in Turkey a greater concern today than it 
was a year ago?
    Mr. Schenkkan. Yes, absolutely.
    Mr. Rohrabacher. Sir?
    Mr. Cinar. It is improving, Mr. Chairman.
    Mr. Rohrabacher. It is improving, okay. We have got one 
sort of ``not improving,'' one ``improving,'' and Dr. Tol?
    Ms. Tol. Turkish democracy----
    Mr. Rohrabacher. You have got to push that button. We can't 
hear you otherwise.
    Ms. Tol. It is certainly worse than it was a year ago.
    Mr. Rohrabacher. Okay. So we got two votes for worse and 
one vote for better. Oh, improving. Well, better is improving, 
isn't it?
    All right. Dr. Tol, your suggestion that we have influence 
over the Kurdish population in Turkey and in their conflict 
with their own government. Could you expand upon that a little 
bit because it seems that your suggestions were predicated on 
the fact that we have that type of influence.
    Ms. Tol. I think, I believe, Mr. Chairman, Washington has 
leverage not over the Kurdish population, but over the PKK and 
the PYD in Syria, because after the U.S. air-dropped weapons to 
the PYD in 2014, the PYD's international image has changed. It 
has been transformed. And the PYD today is working very closely 
with the United States in Syria. The PYD have almost become the 
ground troops for the anti-ISIS coalition.
    Mr. Rohrabacher. What would you have us do? What kind of 
pressure would you have us put on them?
    Ms. Tol. I think on the PYD, the U.S. Government could 
certainly pressure the PYD to take a clearer stance against the 
Assad regime. That has been one of the concerns of Ankara. 
Recently, Prime----
    Mr. Rohrabacher. Excuse me. Could you repeat that? A 
clearer stand against----
    Ms. Tol. Against the Assad regime. Because recently, Prime 
Minister Ahmet Davutoglu said that one of the reasons why 
Turkey is opposed to any role for the PYD in the Syrian 
opposition is that the PYD has close links with the Assad 
regime, and they are not. They are fighting alongside the Assad 
regime. So I believe if the PYD takes a clearer stance, then 
Ankara will have a face-saving way of changing its stance, vis-
a-vis, the PYD.
    Mr. Rohrabacher. Okay. And is it the United States' 
interest that the Assad regime then ceases to exist? Is that 
what you are saying?
    Ms. Tol. Excuse me, could you repeat the question, please.
    Mr. Rohrabacher. So you are predicating that on a belief 
that the Assad regime would be better for the United States if 
the Assad regime would collapse and go away?
    Ms. Tol. In my personal opinion, I think it is in the 
U.S.'s interest and Turkey's interest to see the Assad regime 
toppled, but I think the Obama administration, its first 
priority is confronting the Islamic State, not toppling the 
Assad regime.
    Mr. Rohrabacher. Okay. Well, that is what I was trying to 
get at. It seems to me that the Assad regime, whatever happens 
there, it is just like what happened with--too bad our Bush 
Presidents didn't understand that what Saddam Hussein did 
within his own country wasn't worth American intervention, and 
Assad may be killing people who want to kill us, and that may 
be a good thing.
    So what is your assessment of that, Mr. Cinar?
    Mr. Cinar. I mean, for Turkey, ISIS, PKK and PYD are the 
same. Thousands of PKK militants are fighting on the frontlines 
of PYD. The chain of the command for both terror organizations 
and their leaders are related to Mount Qondil. Both adopt 
Abdullah Ocalan, who is the founder of the PKK terrorist 
organization. And I would like to highlight the PYD declaration 
of 2013 stating the PYD is undertaking a revolution to build a 
democratic society in west Kurdistan. Later on, time will come 
for north Kurdistan, which is in Turkey.
    So Turkey is against the PYD because they are, right now, 
encouraging some Kurdish citizens to declare autonomous, which 
four cities right now is in trouble right now, and start to 
target to the Turkish security personnels. So Turkey is respect 
to the Turkish citizens, but PYD has a different objective 
showing that they are fighting with ISIS, but at the same time, 
they are collaborating right now, PKK, with a big threat to 
Turkey.
    And as I said on my statement, Turkey is also helping the 
other Kurdish groups, including militarily and also financial 
aid to the Kurdish groups that are also fighting against ISIS.
    Mr. Rohrabacher. I think you made your case very well that 
Erdogan's government, they knew the Government of Turkey had 
some major steps aimed at trying to either of reconciliation or 
reach out to the Kurds. I would like to get Dr.--or Mr. 
Schenkkan's reaction to that.
    Mr. Schenkkan. Specifically on the question of outreach to 
the Kurds?
    Mr. Rohrabacher. Yeah. The gentleman is suggesting--your 
suggestion was is that there is more repression.
    Mr. Schenkkan. Correct.
    Mr. Rohrabacher. And journalists are being thrown in jail, 
opposition parties are being charged with criminal offenses, 
you know, corruption, et cetera, which I don't think that ever 
happens here, but it is happening there, and that this 
gentleman, on the other hand, thinks that the government has 
reached out to the Kurds, and there is no excuse----
    Mr. Schenkkan. Well----
    Mr. Rohrabacher [continuing]. For opposition to become 
violent opposition.
    Mr. Schenkkan. If I may, the sequence of events, I think, 
is very important, and I wrote about it in my written 
testimony, which is that there was a ceasefire with the PKK, 
and so if we looked back directly a year ago, we would be 
looking at a period of time when the ceasefire was still in 
effect and when there were negotiations ongoing between the 
Turkish Government, this government, and the PKK.
    There were delegations going to visit Abdullah Ocalan in 
prison in order to have his voice be heard in those 
negotiations, and at the end of February, there was a joint 
announcement by the Turkish Government and the leaders of the 
Kurdish movement, members of the HDP, of a roadmap for how to 
get to peace.
    And we could talk perhaps about whether that roadmap was 
implementable, but it was a roadmap and it was a joint 
announcement. Three weeks after that, 3 weeks later in March, 
President Erdogan rejected that roadmap, said that he had never 
been informed about these negotiations, which was never 
plausible, and even these weekend, his deputy prime minister, 
Bulent Arin, another of the cofounders of the AKP said 
explicitly he knew about the negotiations, he knew exactly what 
their contents were.
    Why did Erdogan denounce this agreement? I think that is a 
very, very key question. What happened in March 2015? I believe 
that what happened is that Erdogan recognized he would not get 
his constitutional reform, he would not get his Presidential 
system through a negotiation with the Kurdish parties, and if 
he couldn't get it through the Kurdish parties, the only other 
source he could get it from would be the nationalist parties in 
Turkey. And therefore, nationalist policy is what he had to 
pursue, and that is what he did pursue from March through June 
7 in the first elections where he did not succeed in getting a 
parliamentary majority, and then, again, in the new elections.
    Mr. Rohrabacher. So it is your position that his turnaround 
on that, what you considered to be a very pivotal negotiation, 
has actually spurred violence----
    Mr. Schenkkan. Absolutely.
    Mr. Rohrabacher [continuing]. In the country and thus 
created a cycle, we have violence, repression, et cetera?
    Mr. Schenkkan. Absolutely.
    Mr. Rohrabacher. All right. And Mr. Meeks, would you like 
to take over from there?
    Mr. Meeks. Thank you, Mr. Chairman. Let me--you know, we 
have got some Americans that may be looking in, and I want to 
make sure that everybody, you know, clearly understands various 
issues. That is important, because we are talking about and 
trying to focus first on the domestic situation within Turkey.
    So during each of your testimony, some talked about the 
PKK, some talked about--and I know I mentioned HDP, some talked 
about PYD, some talked about the Gulen movement, and some 
talked about the Kurdish movement, so--and when we just, I 
think, simplify this to say it is a Kurdish problem, or is 
there a problem within certain sectors within the Kurdish 
community, is that domestic or international, you know, for 
example, from what I am hearing, PKK is not domestic. PKK are 
outside of the boundaries. We are trying to infiltrate the 
boundaries of Turkey.
    HPD is part of the government, but they are Kurds and what 
the situation is there. The Gulen movement, what is that, and 
you know, who is involved there? Then the PYD, who is in Syria, 
and then you have the Kurds who are in Iraq and that scenario, 
so can someone just, you know, explain when we are talking 
about the Kurdish problem, what are we talking about, and who 
are we talking about?
    Mr. Schenkkan. Sure, if I may. I would separate out the 
Gulen movement. Let's set that aside for now as a different set 
of questions that maybe we can come back to later.
    The HDP is a political party primarily representing Kurds. 
Most of it is constituents. Most of it is votes come from 
Kurds, either in the southeast or in Istanbul, which actually 
has the largest Kurdish population in the country, people who 
have moved to that city.
    The PKK is a Turkish Kurdish organization. Now, its 
militant basis are primarily in northern Iraq, or in northern 
Syria in areas controlled by the PYD, which is very closely 
affiliated with the PKK.
    And so you ask, is it a Kurdish problem? It is. This is a--
it is such a trope in Turkish politics that everyone says ``the 
Kurdish problem.'' This is what everyone says for just talking 
about it, they say ``the Kurdish problem.''
    Mr. Meeks. Let me--I want to make sure everybody is in 
agreement with what he just said, the other two witnesses.
    Mr. Cinar. Mr. Ranking Member, I don't agree about the PKK. 
It is a terrorist organization. I just want to make sure.
    Mr. Meeks. Okay. But do you agree, he said that the PKK is 
affiliated with the PYD. They are fighting together in the 
northern part of Turkey and Syria and Iraq. Is that correct? So 
we could make sure who is aligned with who. So the PKK is 
affiliated with the PYD, but does not necessarily have anything 
to do with the HDP. Is that correct?
    Ms. Tol. Yes. The PKK is a Turkey-based militant 
organization----
    Mr. Meeks. Okay.
    Ms. Tol [continuing]. That has been waging a war.
    Mr. Meeks. So----
    Ms. Tol. But the PYD is in Syria.
    Mr. Meeks. So again, I am just trying to focus right now on 
the focus of this hearing. That is the domestic issues within 
Turkey, okay.
    So if what I am hearing is correct, then Turkey, because--
no, let me ask another question before I say that. So is the 
PKK and the PYD focused on changing the government in Turkey? 
And if they are focused on changing the government in Turkey, 
are they focused in doing that in a political process or by a 
military operation?
    Ms. Tol. May I? The PKK is not focused on--the PKK has a 
political wing, which is the HDP, and they are in the 
Parliament right now. So they are not interested in toppling 
the government. The Kurds----
    Mr. Meeks. So hold on. I don't understand. So now you are 
telling me that the PKK--I mean, the HDP is part of the PKK, 
but they are the political wing of the PKK?
    Ms. Tol. They represent--their base consists of people who 
are sympathetic to the PKK, but it is larger than that.
    Mr. Meeks. Okay.
    Mr. Schenkkan. If I may, similar to the Irish Republican 
party in Sinn Fein.
    Mr. Meeks. Okay.
    Mr. Schenkkan. Just as an analogy.
    Mr. Meeks. Thank you.
    Mr. Cinar. Yes, HDP is a kind of part of PKK, but Turkey is 
very clear that HDP can't deal in the Turkish Parliament, not 
in using the PKK. I mean, when we look at right now in four 
cities, they declare autonomous administrations in four Turkey 
cities and set up trenches, planted mines or other explosives 
near barricades, and converted houses into a munitions depots 
near to barricades. So every week, 20 Turkish personnel are 
killed by PKK, and Turkish army right now is taking action 
against some, not the Kurds.
    Mr. Meeks. But what I am trying to figure out then, if HDP 
is part of the government, do they have the right to voice 
their concerns within the government and the freedom to do that 
as a minority party since they were elected to be part of an 
existing government and they are now trying to do something 
militarily against the government, as some others, from what I 
am hearing, want to do?
    Mr. Cinar. They do. I mean, they have the right to talk and 
speak at the Turkish Parliament, but the biggest problem, Mr. 
Ranking Member, the HDP leaders are engaging and motivating 
some Kurdish groups in southern part to Turkey to supporting 
the declaration of autonomy. I mean, can you imagine a city in 
the United States, some groups declare autonomy and try to have 
an independent region in the United States? I mean, of course--
--
    Mr. Meeks. Texas tries it sometimes.
    Mr. Cinar. So this is unacceptable. I mean, there are ways 
that you need to talk in the Turkish Parliament, talk about the 
investment, how the Turkish Government should bring to 
investment, economic investment to the region.
    Mr. Meeks. Let me--and I am out of time, but let me just 
say this, in my opinion, because I am just a--in the United 
States, if someone wanted to talk about being autonomous, they 
could talk about it, they could try to gather support for it 
without it being that someone goes to jail or is prosecuted for 
it. They don't gain the support, they can't gain the support.
    I can't imagine them gaining the support to break up the 
United States in that regard. I mean, that happened once in the 
United States history, and that was called the Civil War. But 
if you ask me today, you know, I know, for example, in New York 
City, one of the boroughs, Staten Island, had a movement to 
separate from the city of New York, and the democratic process 
went on.
    And we didn't go, you know, against those folks that wanted 
to separate the borough, so all I am trying to understand is 
the democratic process within the country. Now I understand 
that if somebody is a terrorist organization outside of 
militarily trying to overthrow you, the government has the 
responsibility to protect the government, but if you are within 
the government and within the people, you are not doing it in a 
violent way, then you should have the opportunity to voice 
those concerns. I mean, that is from my thought of view, and I 
yield back.
    Mr. Rohrabacher. Thank you, Mr. Meeks. We are going to have 
a little quiz on the meaning of each and every one of those 
abbreviations, and we get them right. I remember--can we all 
remember LAPD, Los Angeles Police Department, you know. All 
right.
    Just again, to get more serious, the fact is that we have 
been talking about an area that now, in the last 4 years, has 
been--and especially in the last 8 years, but especially the 
last 4, have drifted into chaos and violence, and hundreds of 
people, if not thousands of people are losing their lives. Some 
of us are very concerned that Assad's hatred--excuse me--that 
the hatred by Erdogan of Assad, for some reason, the regimes 
hating each other, has, in some way, convinced Erdogan, and we 
are going to go into this in greater detail, that he should be 
supporting Islamic opponents of the Assad regime who may be 
radicals, and it looks like that to some of us.
    Colonel Cook, could you take over from there?
    Mr. Cook. Thank you very much. Right now, I have PTSD, 
post-traumatic stress disorder after listening to all the 
acronyms. The question I have for Mr. Schenkkan, and that is, 
the relationship of Erdogan with the Muslim Brotherhood and 
Hamas. Can you give me your opinion on that? I think there has 
been a radical shift which is affecting a lot of the region, if 
you can answer that.
    Mr. Schenkkan. I will do my best. It is not my area of 
specialization, but I will say that the now-President Erdogan 
and his government have pursued a strategy in Syria. Their goal 
in Syria from the beginning was to empower the equivalent of 
Muslim Brotherhood actors inside Syria.
    Mr. Cook. Yeah, but hasn't there been a--the whole country, 
in fact, is--and you mentioned or somebody mentioned about how 
secular it was, perhaps one of the most secular nations in the 
area, and that this shift is going on about Hamas, can you 
comment about Hamas?
    Mr. Schenkkan. Well, the relations--you know, Hamas has had 
individuals who resided in Turkey at times, and those have been 
tolerated by----
    Mr. Cook. Did this contribute to the stress that Israel had 
with that particular country?
    Mr. Schenkkan. I am sure it does.
    Mr. Cook. Okay. Moving on a little bit on Erdogan and any 
activity about the Christians' persecution.
    Mr. Schenkkan. Well, Turkey has officially--has officially 
recognized Christian communities in the Greeks and the 
Armenians. There are still churches.
    Mr. Cook. But would you say that situation has 
deteriorated?
    Mr. Schenkkan. I would not say it has deteriorated in the 
last year. I would say it has always been a very tense and very 
unpleasant relationship, to say the least. Certainly the ethnic 
cleansing and the genocide against the Armenians that took 
place in Turkey is a scar on Turkey's history.
    Mr. Cook. Okay. One other thing I had, or a couple of 
things. Mr. Chairman, I recommend next time, if we review this, 
that we actually have a joint Foreign Affairs House Armed 
Services Committee because the hidden elephant right here right 
now is one of our most important NATO allies; at least when I 
was in Turkey, I was really, really disturbed at the 
restrictions, the restrictions that were placed upon our 
military personnel, particularly in select--other places, and 
this is huge. And I think we--we have got to attack--ask these 
questions because it is going to affect us, and it could just 
destroy that whole NATO relationship.
    Moving on a little bit, and that is, in regards to the 
border that--where so many people have fled through Turkey and 
what Turkey is doing right now to close that off, and I am 
talking about that border, particularly with Syria. Anybody, 
can they address that shortly, because I am running out of 
time, and I have got about 10 more questions.
    Ms. Tol. Well----
    Mr. Schenkkan. Go ahead.
    Mr. Cook. Doctor.
    Ms. Tol. Turkey recently stepped up its border patrols. 
There are 330 kilometer of trenches on the border.
    Mr. Cook. Is it working?
    Ms. Tol. There is a war. It is not working because there 
has been--Turkey has been trying--doing more, but on the other 
hand, there are illegal crossings, and we have seen that in the 
recent Ankara bombing, who the attacker, he crossed into Turkey 
very easily, so there have been illegal crossings.
    Mr. Cook. Doctor, let me ask you another question. Is 
Turkey involved with Libya, politics of Libya right now?
    Ms. Tol. Yes.
    Mr. Cook. Could you go into that a little bit?
    Ms. Tol. Yes, it has been working. It has his--it has been 
working with local Salafi organizations, and Turkey has 
always----
    Mr. Cook. Muslim Brotherhood?
    Ms. Tol. Yes.
    Mr. Cook. Would you characterize it as extreme groups?
    Ms. Tol. They are extreme groups.
    Mr. Cook. I yield back. No further.
    Mr. Rohrabacher. So if I could summarize, we have Turkey, 
there are questions about a level of repression, or one 
gentleman--one of our witnesses believes the situation has 
actually gotten better because he points to different 
negotiations that have taken place.
    Our other witness suggests that after negotiations, the 
President reneged on the agreement that was made to make things 
better. So we have an increase of tensions, of killing, of 
violence. We have now the concept of that same government, same 
person who is in power who is involved with providing weapons 
to people who are radical Islamists, whether it is in Libya or 
whether it is in Syria in the name of stopping Assad. So we 
will go to Mr. Sires.
    Mr. Sires. Thank you for that resume. Thank you for that, 
Professor. Well, now I got a little bit straight now with these 
letters, but I am still a little bit confused.
    You know, with Turkey, I always look at Turkey as taking 
one step forward and two backwards. I mean, they seem to have 
come a long way, and then this crackdown on journalists, 
putting people in jail for insulting the President, for being 
against the President, I mean, to me, that is just taking two 
steps backwards, and I think it is the oldest playbook in the 
world where you have an election coming up, you go after these 
people in order to control the outcome.
    So to me, you know, I don't know. Turkey just is an enigma 
to me. It is a country that has so much potential, and yet they 
do these things, and quite frankly, I don't even know if Turkey 
should join the EU because the EU is a mess, and you know, they 
could wait a little longer and see what happens with the EU.
    But you know, with all this going in Syria and the amount 
of refugees and everything else, it seems that Cyprus has been 
forgotten, or an effort to bring a solution to Cyprus. Since 
1974, the Turkish have been in Cyprus. They have about 30,000, 
40,000 troops, and the Cyprus people seem to have crossing the 
green line, and millions of times, and just when they are 
getting a little bit closer to come to some sort of 
understanding, they just walk away.
    I have been to the green line, I have been there, and one 
of the things that I think after 1974 in an effort to bring 
some sort of solution, I think the Turkish should take down 
that flag that they have on the hill, which is kind of 
insulting when you have a whole side of a hill with a Turkish 
flag and then they light it up at night.
    I mean, I don't think that is necessary to have that if you 
want to come to some sort of an understanding and get the 
Cyprus issue resolved.
    So I am just wondering if the economic situation in Turkey 
gets worse, where do we go from here? Do we continue to go 
after these people as an excuse, or do we try to resolve the 
issues in Turkey? Can you----
    Ms. Tol. Of course. May I just say a few words on the 
Cyprus negotiations. I think there are negotiations going on 
between these two parties, Greek Cypriots and the Turkey 
Cypriots, and they are both hopeful that something is going to 
happen this year, but they haven't yet discussed the most 
contentious issue of Turkish withdrawal of troops.
    So that is going to be a main problem because it has to be 
a solution that Erdogan can agree to. And on your question 
about economy----
    Mr. Sires. How can you have a solution when you are wanting 
to leave the troops there?
    Ms. Tol. Yes, that is----
    Mr. Sires. That is the problem.
    Ms. Tol. Yes. They haven't discussed that yet, and it is 
going to be a problem. And on the question of economy, I think 
that could be a good thing for Turkish democracy. An economic 
crisis could be a good thing for Turkish democracy because 
contrary to many people--what many people in DC believe, the 
people in Turkey, those who are voting for the AKP, they are 
not voting for the AKP because they have Islamist suits, or 
Islamist values. They vote for bread-and-butter issues, so--and 
we have seen that in June. Many people thought that Erdogan--it 
was not possible to beat Erdogan, but in June, in fact, the 
party lost its parliamentary majority, so it can happen.
    So if there is a problem in Turkish economy, I think we 
will see the weakening of the AKP, and which I believe will 
translate into a better democratic--more democratic country.
    Mr. Sires. Mr. Cinar.
    Mr. Cinar. Congressman, regarding the Cyprus, as you know, 
during the Kofi Annan, the original Kofi Annan term, there was 
a referendum, and then the Greek Cypriots declined to 
reunification for--with the north part. So I mean, if the 
Turkish army has to leave the island before they agree each 
other, it seems like State Department and the administration, I 
think, is working right now with all parties to get some 
negotiations, and the President of the northern Cyprus are also 
optimistic to might get reunification on the island.
    Regarding the economy. When you look at the, as you said, 
European Union, they are still in trouble. Turkey is doing much 
better compared with the other countries, so it seems like 
Turkish economy is still stable. We don't--I don't think so, 
there will be a recession in 2016, and they are taking also 
more investment plans for this year.
    Mr. Schenkkan. Well, I will just speak on the question of 
the economy and whether Turkish voters get a chance to have a 
say again.
    The issue is that Turkey has been through a run of 
elections now, four elections in 2 years, and they don't have 
more unless the government decides to call early elections. So 
essentially, the political agenda at this point is whether the 
AKP, the President Erdogan's party, can reach the super 
majority necessary to call a constitutional referendum on a 
Presidential system.
    And if such a referendum is called, that would be the next 
moment when we find out whether President Erdogan still has a 
mandate. But barring that or barring early elections, we don't 
have another vote when there is a time that this train stops.
    Mr. Sires. Just one last question. It seems that Turkey 
seems to depend on Russia for about 20, 25 percent of its 
energy. I would just warn Turkey that the Russians cut off the 
gas to the Ukraine in the middle of winter, so I would be a 
little bit concerned knocking down their planes.
    Thank you.
    Mr. Rohrabacher. Mr. Marino.
    Mr. Marino. Thank you, Chairman.
    Good afternoon, and thank you for being here.
    Turkey is clearly the linchpin of American interests and 
policies in many areas. Turkey is an ally of the U.S., and we 
appreciate that relationship. I have been to Turkey, I have 
been to Istanbul, the people and the government were extremely 
generous to our codel that visited there.
    I do have a concern about the restrictions concerning U.S. 
military personnel in Turkey, and I hope that the President 
takes that into very serious consideration when addressing the 
relationship with the U.S.
    But I want to switch gears here a little bit. I want to 
talk about Turkey's relationship with Russia via Turkey's 
relationship with the United States. Just recently, Defense 
Secretary Carter said that Russia is one of the top threats to 
global order. In fact, he put ISIS down, I think, either third 
or fourth on that.
    I would like you to give me some insight, each of you, and 
I would like to start with Dr. Tol, ladies before gentlemen, 
what you see are Turkey's relationship with the United States 
and then Turkey's relationship with Russia concerning the 
interests of the United States. You understand my question?
    Ms. Tol. Sure.
    Mr. Marino. Please.
    Ms. Tol. Turkey, as Mr. Congressman just mentioned, Turkey 
is dependent on Russian energy, and that has made things very 
difficult for Turkey. And that was one of the reasons why 
Turkey could be able to compartmentalize its relations with 
Russia despite different stances in Syria until very recently, 
until Turkey shot down a Russian jet.
    Mr. Marino. That was in Turkey's airspace.
    Ms. Tol. Yes. But it had happened many times. It just 
happened recently again.
    I think, right now, the main concern for Turkey in Turkey-
Russia relations is what Russia is doing in Syria. So the 
Russian military buildup poses a great challenge for Turkey's 
strategy in Syria. Turkey has been asking for a no-fly zone in 
northern Syria, and now there is a no-fly zone, a de facto no-
fly zone enforced by Russia. Turkish planes cannot fly in 
northern Syria because of the Russian S-400 missiles.
    And the Russians, they are attacking the Turkey-backed 
Syrian opposition groups. They are attacking the Turkmen. The 
Turkmen, they are ethnically related to Turkey, and they have 
almost been Turkey's B plan in Syria. They have been training 
them militarily. They have been working with them closely. And 
Russians, they have been bombing them.
    So Russian military buildup in Syria has been a great 
challenge for Turkey. And also in Iraq, Russia is trying to 
play an important role in the region that really make things 
very difficult for Turkey's Middle East policy.
    Mr. Marino. Thank you.
    Mr. Cinar.
    Mr. Cinar. So Congressman, regarding the U.S.-Turkish from 
the military aspect, I would like to share a small quote from 
the General John Allen, what he said on the testimony on the 
Senate Foreign Relations Committee.
    He said, we must not forget the Turkish Government, a 
critical partner in this fight, which recently increased its 
participation in the coalition, opening its bases to U.S. and 
other coalition members, and conducting air strikes on ISIL 
targets inside Syria alongside other coalition aircraft. This 
cooperation has already had an impact and will continue to have 
significant impact on our operations in Syria.
    So when we look at Russia right now and the Pentagon also, 
when I look at the statements, Pentagon also said Russia air 
strikes are not targeting the ISIL 100 percent. 80 percent of 
the air strikes, Russian air strikes targeting the Assad 
regime's opponents. And we know the United States and the other 
coalition's strategy on fighting against ISIS and Turkey's on 
that coalition.
    So there is actually right now a big argument between both 
sides. And I believe Turkey and United States will have a much 
stronger military strategic partnership in this year.
    Mr. Marino. Mr. Schenkkan.
    Mr. Schenkkan. Thank you. I will follow on what Mr. Cinar 
said.
    I think there is a temptation to see Russia as an ally in 
Syria because of the Russian messaging about what its goals are 
in Syria, but I think the fact is, Russia, under its current 
government, defines its interests in terms of opposition to the 
West. This is how the current government of Russia defines its 
interests, whether it is in Syria, or whether it is Ukraine or 
in Europe.
    And given that, it is impossible to see how those interests 
are going to converge. Russia will move its goals if it sees 
them converging with the United States, because its goal is to 
increase its leverage against the United States in any possible 
outcome in Syria.
    Mr. Marino. I see my time is expired. Thank you very much.
    Yield back.
    Mr. Rohrabacher. We will have another hearing on Russia to 
go through those issues, whether or not Russia is basing its 
policies on what criteria. Some people think that we have 
pushed Russia in that direction with an endless hostility. 
Others believe that Russia is just playing on its heritage of, 
for the last 100 years of being an adversary of the United 
States.
    Mr. Marino. I look forward to that.
    Mr. Rohrabacher. So we will have an honest discussion on 
that. Both sides will always be presented in my hearings.
    Ms. Gabbard.
    Ms. Gabbard. Thank you very much, Mr. Chairman.
    Mr. Schenkkan, I will start with you, if you can talk about 
Turkey's standing within NATO. I think both you and Dr. Tol 
have talked about different examples of where Turkey has worked 
in a direct opposite manner to the objectives that the United 
States and our NATO allies are working toward in the effort to 
defeat ISIS.
    Why is it that stronger accountability measures have not 
been taken against Turkey from different NATO allies with 
respect to the open border with Syria and the continued open 
flow of foreign fighters who are going and working with ISIS, 
al-Qaeda, al-Nusra, and other Islamic extremist groups in 
Syria, who are working to overthrow Assad so that they can take 
over all of Syria and establish their caliphate, the direct and 
indirect support that Turkey provides to some of these Islamic 
extremist groups who are fighting toward that end in Syria, and 
Turkey's focus on defeating the Kurds rather than standing with 
NATO allies and the United States against ISIS?
    Mr. Schenkkan. Thank you.
    I think the Turkish relationship with NATO has certainly 
been extremely complicated by the war in Syria. Turkey has seen 
its interests in Syria as diverging at times from what NATO 
interests are. I would argue, however, that Turkey has--and 
this is despite the fact that I have been very critical of 
Turkish Government, as you can see in my testimony, 
domestically.
    The Turkish Government has, in fact, changed its policies 
regarding the border. It has taken steps to attempt to seal----
    Ms. Gabbard. Why haven't they closed it after all this time 
and as strong of a military as Turkey has? Why have they not 
closed the border and stopped these foreign fighters from 
coming in and out and going back into Europe?
    Mr. Schenkkan. They would be the ones to answer 
specifically. But my opinion would be many of those fighters 
that are fighting in Aleppo, for instance, and who lost their 
corridor today are also being supported by the United States.
    Ms. Gabbard. Well, it is a problem.
    Mr. Schenkkan. But that is a question then not of diverging 
from NATO strategy or United States strategy. That is a 
question of NATO or United States strategy. So I don't think it 
is simply that Turkey has gone off on its own tangent 
completely in opposition to what NATO or the United States have 
been trying to do.
    What NATO and the United States have been trying to do in 
Syria has been a moving target, and it has changed. It clearly 
continues to evolve, and it can be at times hard to say what 
the goals are.
    Ms. Gabbard. Mr. Cinar, can you comment on that?
    Mr. Cinar. Sure.
    Congresswoman, first of all, Turkey is not defeating the 
Kurds. They are defeating the PKK terrorists. So I just want 
to----
    Ms. Gabbard. But to Dr. Tol's point, they are working 
against to defeat some of the very same Kurdish groups who are 
fighting against ISIS on the ground in northern Syria.
    Mr. Cinar. Correct. So it is linked with the PYD. That is 
why, for Turkey, it is a terrorist organization, same as ISIS.
    Regarding the border security, yes, you are right, Turkey 
needs to improve securing the border. And it seems like there 
is a much stronger cooperation with U.S. and other allies.
    And also, let's keep in mind that most of the fighters are 
coming from the west side, especially from the European side. 
And if they have the British passports, French passports, and 
if Turkey doesn't get intelligence sharing from Europe, then 
Turkey is not to stop them at the borders, and they are going 
to just use the Turkish as a bridge.
    So it is very important that Europe also share the strong 
intelligence with Turkey.
    Ms. Gabbard. Are you saying that Turkey, if there is 
someone with a British or French passport coming in through 
Turkey and attempting to enter Syria, that there is some form 
of--that they are marking that down; that they know which 
British and French and foreign fighters are coming through 
Turkey and to Syria, and then therefore able to provide that 
intelligence back into the EU and other countries?
    Mr. Cinar. No. If they get notified by Europe----
    Ms. Gabbard. But if they don't know, if these people 
haven't been identified in the EU prior to their going through 
Turkey to fight in Syria with groups like ISIS----
    Mr. Cinar. Right. If they have a British passport and if 
Turkey doesn't know that they are ISIS volunteers or fans, and 
if they don't get notification from the origin country, how can 
Turkey stop them at the border? So I think it is an 
intelligence sharing issue that both parties need to solve 
that.
    Ms. Gabbard. So you are saying that they are enforcing the 
border, just not stopping these foreign fighters from going 
through. Is that what you are saying?
    Mr. Cinar. Correct. Intelligence sharing----
    Ms. Gabbard. So the border is enforced by Turkey?
    Mr. Cinar. It is 511 kilometers. It is a long border.
    Ms. Gabbard. So the 97 kilometers that President Obama 
talked about and others have admitted that Turkey is not 
enforcing on the border, that is completely closed and enforced 
at this point?
    Mr. Cinar. It is not completely closed, but what I see is 
from the State Department statements, ISIS start to encourage 
some of them to go to Libya or North Africa countries to join 
the ISIS.
    Ms. Gabbard. So that just goes to my point that Turkey has 
no excuse for allowing these openings in their border, which 
further helps these Islamic extremist groups.
    Mr. Cinar. Right. No excuse, but with the support of the 
European allies.
    Ms. Gabbard. Thank you.
    Ms. Tol. While both the U.S. and European countries have 
been pushing Turkey to close the border, in May 2015 Turkey 
closed the last two border crossings. I think it is a matter of 
capability and political will. Compared to last year, the 
political will is, I think, there, but there are still illegal 
crossings and the security forces on the border, they are 
turning a blind eye to those illegal crossings.
    And I think Turkey has been doing more, and I think it 
could do more. But I think the Turkey security forces are 
overstretched, because they have been waging the war against 
the PKK. And secondly, your question about why Turkey is 
attacking the Kurds in Syria, it all goes back to Turkey's 
domestic drivers. I mean, one of the reasons why the ceasefire 
broke down was Turkey's fear of the PYD's empowerment.
    The Kurds, they have been one of the main beneficiaries of 
our uprisings. They are very strong. The PYD has become a close 
ally of the United States and Syria. Europeans, they have been 
supporting that. So this heightened Turkey's fear of an 
independent Kurdistan and other entity, autonomous entity on 
its doorstep.
    And that is why, I think, that is one of the reasons why 
Turkey is being very unwilling to go back to the negotiating 
table with the Kurds, and that is why Turkey attacked the PYD.
    Ms. Gabbard. Thank you.
    Thank you, Mr. Chairman. If at some point in the future you 
were to hold a hearing on this, on the Kurds, specifically, I 
think it would give us a good opportunity to really dive into 
the situation so that we can hear from all sides and 
understand.
    While we hear what Turkey says and why they are attacking 
the Kurds, from the Kurdish perspective. We saw in the recent 
elections how the HDP, as soon as they won enough seats in 
Parliament to threaten Erdogan's power were manipulated, the 
elections were manipulated and things turned out to that 
Erdogan was able to maintain his situation. So I hope that in 
the future we will have the opportunity to dig into that 
further.
    Mr. Rohrabacher. We always appreciate everyone on this 
committee, your correction and guidance and suggestions. In 
this case, I will check to see if we have jurisdiction to hold 
such a hearing. Kurds may or may not, but the fact that the 
Kurds are part of Turkey, you know, at least there is a 
connection there, because this is not the Middle East, of 
course, subcommittee. But I will check to see if we can get 
permission to do that and appreciate that suggestion from you.
    We now have Mr. Connolly, who will make his disagreement 
with the chair absolutely clear.
    Mr. Connolly. I thank my friend.
    You know, I sometimes wonder on our committee, when we talk 
about Turkey, whether we can step back a little bit and look at 
context and attributes as opposed to looking for fault only, 
none of which is to diminish the legitimate concerns all of us 
have about various trends in Turkey, and about the role of 
President Erdogan and his philosophy about accreting power and 
how to use it.
    Turkey is, and has been, a reliable NATO ally since the 
founding of NATO. Turkey has been an interlocutor between 
Israel and its neighbors in the Middle East, and has played a 
pivotal and positive role in that regard since the founding of 
the State of Israel. It has accepted 2 million refugees from 
Syria without much help from the international community, 2 
million.
    It shares an enormous border with Syria and an enormous 
border with Iran. It is a dangerous neighborhood. It is key to 
a Cyprus settlement. There won't be a Cyprus settlement if we 
are not involved in Turkey in a meaningful way.
    We share a military base on Turkish soil. Mr. Schenkkan 
mentioned four elections in the last 2 years. I believe, Mr. 
Schenkkan, I am right, that our own State Department has said, 
by and large, they have been free and fair.
    Mr. Schenkkan. I will not speak to--the OSCE has said they 
were free but questioned the fairness in it.
    Mr. Connolly. Well, I sometimes question our elections, how 
fair they are, but, I mean--it is not perfect, but where else 
in the region can you point to? And I will point out Erdogan 
suffered, in a sense arguably, two losses: First one outright; 
the second one, you know, he didn't get the super majority he 
wanted and needed because the voters in Turkey had a different 
point of view.
    None of this is to whitewash real issues, but there is a 
context here. We want to make Turkey a more stable democratic 
state. It is in our interest to have European integration with 
Turkey, not to push it away.
    History has a lot of umps and a lot of tragedies, and it 
should be recognized. But it shouldn't be dispositive. We are 
where we are, and this relationship is a critical one. Let's 
not kick it away.
    Having said that, Mr. Schenkkan, you outlined concerns and 
I share your concerns. There are anti-democratic impulses that 
have manifested themselves in Erdogan's own approach with 
respect to the press, with respect to dissent. And, you know, I 
guess I invite you to comment on that a little bit, and the 
other two witnesses as well.
    How worried should we be about that? And are there 
countervailing forces that can be looked to to try to redress 
what is, in fact, happening in Turkey? From this distance, it 
is alarming.
    Mr. Schenkkan. Thank you. It is very alarming, and I think 
we should be very worried. I think the return to violence and a 
return to an open conflict inside the country comes on top of 
what was already a very grave situation.
    You asked, are there things within the society that might 
hold it back? Yes, there are. Turkey is a diverse country. It 
is a pluralist country. You are correct to note that the 
electoral system functions better than many other electoral 
systems in the neighborhood. There are major concerns about the 
media environment and how that affects the ability for voters 
to access information or to make judgments fairly.
    But there is diversity, there is still outspokenness in 
Turkish society, even though it is punished quite frequently. 
So I do think there is some hope, but it is grim and it is 
getting grimmer.
    Mr. Connolly. Mr. Cinar.
    Mr. Cinar. Congressman, yes, there are some issues in 
Turkey and, as I said, there are some improvements that I see.
    And I will give you an example about the freedom. Recently 
I was on the discussion many times about academic freedom. 
Freedom of expression is safeguarded in the Turkish 
constitution, legislation. Yet, it goes without saying that 
academic freedom shouldn't be abused for political ends.
    Article 130 of the Turkish constitution clearly states, and 
I quote,

        ``Universities and members of the teaching staff, and 
        their assistants may freely engage in all kinds of 
        scientific research and publication. However, this 
        shall not include the liberty to engage in activities 
        against the existence and independence of the state, 
        and against integrity and indivisibility of the nation 
        and the country.''

    So since I don't have the media credentials and I sometimes 
write articles, and I respect my colleagues and journalists, 
but some of them, if they are sharing the national intelligence 
information to the public, then the
    Turkish Government says that it is illegal, they can't do 
that. So there is lots of discussion going on. I mean, there 
should be an improvement on that sense.
    But there are also regulations that there is no threat for 
the Turkish unity in the country.
    Mr. Connolly. Mr. Chairman, if I might be allowed just two 
more points. One is just to comment on Mr. Schenkkan, what you 
talked about Russia and Syria, and you characterize their 
behavior as just anti-West. They don't like us. And I guess I 
would respectfully suggest to you it is maybe a little more 
than that.
    I mean, Syria sends Hafez al-Assad, was the Soviet Union's 
one client state in the region, and that goes back to 1970. So 
almost 50 years of investment. They have got a military 
presence in Syria. It is all they got. And Putin, in a long 
tradition, now a Russian tradition, previously a Soviet 
tradition, doesn't want to give it up, and is going to fight 
and can be expected to fight.
    I am not justifying his behavior at all, but, I mean, I 
think it is more that than it is culturally anti-West. I think 
it is protecting Russian interests, perceived interests that is 
fueling a lot of his behavior with respect to Syria. I mean, I 
wouldn't deny either there is a patina of anti-Western bias and 
chip on the shoulder that Putin has, no question about it, but 
I do think they are looking at this not so much from a 
cultural, even political point of view, it is a geostrategic 
point of view where if they lose that, they lose all toehold in 
the region. And they don't want to do that.
    And you may want to comment, but before you do, just one 
more thing, and then I will cease and desist, Mr. Chairman. I 
would like all of you to have an opportunity if you wish, from 
the United States point of view, and I worry how much this 
causes friction in our relationship with Turkey, increasingly 
here, certainly in the Congress, I think, we see the Peshmerga 
as a very positive force with which we can work. They are pro-
American; they are willing to fight; they will gain territory; 
why wouldn't we partner with them, equip them, train them, and 
help them along the way in recapturing lost ground to ISIL? And 
I sense that that puts us on a collision course, frankly, with 
the Government of Turkey, because they don't distinguish 
between PKK and the Peshmerga.
    And we most certainly do. And with that, I will be quiet, 
and if the chairman will indulge, to allow the panel to 
respond.
    Mr. Rohrabacher. Well, thank you very much. I will have to 
say that this is somewhat of a miracle hearing my distinguished 
colleague from Virginia giving the benefit of the doubt to 
squirrellish charges against the Putin regime, for giving 
benefit of the doubt to the Putin regime on this. They are just 
being mean and nasty because they are mean and nasty, not 
because of their habitually being mean and nasty.
    Mr. Connolly. Yeah. Let's not go crazy, Mr. Chairman.
    Mr. Rohrabacher. All right. And let me note that this 
hearing has been very good and that we have now some challenges 
ahead of us: One is to have a hearing specifically on the 
Kurds, and all of these issues dealing with the Kurds. We will 
also have a hearing and, again, every one of my hearings we try 
to have both sides represented, I insist on that, and to give 
everybody a chance to make their case. So we will have one from 
Russia as well.
    Mr. Connolly. Mr. Chairman, I don't think any of us on our 
side of the aisle would ever question how fair you have been. 
No question about it. I just wonder if he will indulge the 
panel to respond to that last point.
    Mr. Rohrabacher. Go right ahead.
    Mr. Connolly. Thank you, Mr. Chairman.
    Mr. Schenkkan. Sure. Regarding Russia just briefly, I 
didn't mean to imply that this is a culture war or that there 
is some kind of a central Russianess that leads it into 
conflict with the west. I think your characterization is 
correct. However, I would argue that the Russian definition, 
this current Russian Government's definition of its interest is 
whether its gains vis-a-vis the West.
    And so it simply can't align them right now with the United 
States because it constantly redefines them in terms of its 
position and its status vis-a-vis the United States and that 
makes it--you know, I know the Secretary of State and others 
are always seeking nonzero-sum outcomes, but you can't have a 
nonzero-sum outcome if the other partner is changing the 
equation.
    And I will leave the other question.
    Mr. Connolly. Well, actually----
    Mr. Schenkkan. Oh, regarding the Peshmerga and the PYD. My 
understanding is that the United States is working closely with 
the PYD in northern Syria. They are working closely with them 
not only as spotters for aerial operations, but also probably 
providing weapons, and perhaps even providing training or other 
kinds of support.
    That seems to be certainly the most effective in that 
region of Syria in the fight against ISIS. One of the core 
questions, however, is that not all of these parts of Syria, 
where ISIS, where the Islamic State is successful and 
operational, are Kurdish areas. They are not inhabited majority 
by Kurds.
    And so a Kurdish group, a Kurdish militia will not have the 
legitimacy to hold those areas, even if they are cleared of the 
Islamic State. And that makes it very difficult to say that we 
can simply outsource this work onto the PYD and say that is how 
we solve the Islamic State problem. There have to be Sunni Arab 
allies for the United States in Syria.
    And as Congresswoman Gabbard was suggesting, yes, some of 
these are Islamist groups, if not all of them at this point. 
And that is the tough choice that the United States is dealing 
with in its policy inside Syria.
    Mr. Rohrabacher. I want to give the other two panelists a 
1-minute summary of what you would like to finish up the 
hearing with. Go right ahead.
    Mr. Cinar. Congressman, regarding the Peshmerga and Turkey, 
I just want to give the facts. Turkey loaned $500 million to 
Turkish regional government to help meet the budgetary needs of 
the government. So, in addition to financial support, Turkey 
continues to protect the military support to the Kurdish 
Peshmerga forces. So it is not the PYD issue, but Turkey 
supporting the other Kurdish groups that are fighting against 
ISIS.
    So far, Turkey has also trained and equipped over 2,300 
Peshmerga forces, and transferred to Peshmerga from northern 
Iraq to Syria to Turkey. As you said, Turkey shouldn't kick it 
away. Turkey shouldn't be punished. I mean, unfortunately, 
Turkey is not doing a great PR, what they are doing right now.
    So Turkey and United States should be closely working. 
Military strategic partnership should be improved this year and 
beyond, and I believe that with these kind of hearings and 
collaborations, both administration will improve their 
relationship. Thank you.
    Ms. Tol. Mr. Congressman, you mentioned that you would like 
Turkey to be a stable and a democratic country. I believe 
Turkey will not be a stable country until it is democratic. 
Yes, you are right, the elections were free, but it is an 
electoral democracy, and there is more to democracy. Freedom of 
expression is one of the most fundamental pillars of democracy 
and it is lacking.
    And even in this room, I can count at least two people who 
have been victimized by a lack of freedom of expression and 
media freedom and were fired because of their critical views of 
the government.
    And it is not just a matter of lack of freedom of 
expression or media freedom, but basic rights and freedoms are 
missing. And that is why there is a Kurdish political movement 
that is fighting, and that is why we have 200 civilians who 
were killed in a matter of a few months.
    Those people, they are not asking to topple the regime. 
They are not looking for a new regime. All they are asking for 
is they want to be able to have the right to have an education 
in Kurdish. They want a new definition of citizenship, a civic 
definition of citizenship that is not ethnocentric. And they 
want to revise the vague definition of antiterrorism law 
because they have been victimized by that law.
    Mr. Connolly. We agree, Dr. Tol.
    Mr. Rohrabacher. Thank you very much.
    And we are going to have two summaries, one by Mr. Meeks 
and then myself, and then we will close the hearing. Thank you.
    Mr. Meeks. And I will be very brief.
    I want to thank the witnesses. And I think in just 
listening and in trying to educate ourselves, you have helped 
us tremendously. And if I was to summarize where we are in the 
conversation that we have had, I think I could do it in one 
word, well, two words: It is complicated.
    For sure, I believe that Turkey has to look out for its own 
national interests, and that if there was an extremist group 
that was attacking it, et cetera, just as we would in the 
United States, that Turkey has to do what Turkey has to do to 
make sure it preserves its government in moving forward.
    But I also believe that the people, just as Dr. Tol had 
talked about, should have the right to dissent and to give 
their viewpoints and to run in government, and if they get 
elected, to participate without fear of being persecuted or 
prosecuted, that that is what a democratic society is all 
about.
    And from what I have heard, and I just think three 
excellent witnesses, Mr. Chairman, and the perspectives that 
you have come from is that we have got to try to figure it out. 
But most importantly, the Turkish people have to try to--what I 
call the Turkish people, if you are living in Turkey, whether 
you are Kurd or not. I am talking about the Turkish people, 
everyone that is there who are citizens of Turkey, have to 
figure out how to get to a table, you work it out, and you 
resolve these differences, because it is important not only for 
Turkey but in a glowing and interconnected world, it is 
important for the entire region and, thereby, really important 
for every one of us.
    So, again, thank you for really good insights and helping 
this committee understand what is going on domestically in 
Turkey. Thank you.
    Mr. Rohrabacher. Thank you very much, Mr. Meeks. We will 
both do a little course before we have the next hearing on what 
all those abbreviations mean, those different designations. It 
does get complicated. It gets real complicated.
    Let me just note, again, thank you to the witnesses. We 
have had some interesting discussion. We have also basically 
brought forward the need for two other hearings that this 
chairman and the ranking member will work on, in terms of just 
one, just specifically about the Kurds, specifically dealing 
with the Kurds, wherever they are in that region, then one 
specifically about Russia. And we will have, again, witnesses 
on both sides of the issues dealing with those particular 
entities.
    Let me just say, that in terms of this issue today, the 
reason for this hearing, it is evident to some of us--and I am 
glad we had another witness to explain that there are some 
other perspectives on this, but that Turkey is going in the 
wrong direction. And I am very happy, as I say, that Mr. Cinar 
actually, you know, was able to present some of the positive 
sides that we should certainly look into and make that part of 
our decision-making process.
    But those of us who are concerned, we see a President 
trying to change the law to extend his rule. I will have to say 
that I just visited Mt. Vernon with my children. God blessed me 
and my family with triplets 11 years ago, so I brought them up 
to Mt. Vernon.
    And one of the great things that we had in this country was 
the fact that our first President set down the custom and then 
it became law after FDR violated the custom, which is that a 
President last two terms. Eight years, that is enough to be 
President. And after that it begins to corrupt.
    And I think that we are beginning to see that, signs of 
either corruption or corruption of power, not just money, but 
of power, desire for power taking place in Turkey. And we see 
also the incredible problems that are going on right now and 
that have been going on with Turkey.
    There has always been this drug trafficking that has gone 
across Turkey that has corrupted their society. Human 
trafficking is a huge problem and a lot of the traffickers come 
through Turkey and go right into Albania and the Balkans. And 
that, too, should be an issue of concern to us.
    And, of course, we see that Turkey, instead of playing the 
part of we are a more democratic Islamic country, thus we are 
going to become a force for moderation and reconciliation to 
try to find peaceful solutions, we more and more find Turkey 
looking toward the military and saying, actually, we are going 
to side with one radical group or another, or even decide that 
they are going to shoot down a Russian airplane that was over 
their territory for 30 seconds after it had already left.
    And let me just note, American planes and all across the 
place cross people's borders all the time. Of course, this was 
in a combat mission. That plane was in a combat mission. We 
know that. But it was in a combat mission in order--and here is 
another thing that we will be looking into--whether or not--
when we are talking about Assad and his whole relationship to 
Turkey and Syria, the leaders of these two countries, which 
obviously are looking at each other as enemies, whether or not 
simply becoming an enemy of Assad means that those forces that 
are being bombed are, in some way, democratic as compared to 
radical Islamic, as well as Erdogan's assessment that the Kurds 
are, by definition, because they are against him, they are in 
some way radical.
    This is an economy that is--there are connections here in 
logic that need to be examined to see if that, in any way, is 
attached to reality or if this isn't just people excusing their 
own military action against whatever group is against them.
    I would suggest--and we will go into--again, whether or not 
Assad--those people against Assad--I am sure some of them are 
very democratic, but frankly we heard the same in Libya and we 
have heard the same in other countries, that it is better 
sometimes not to help overthrow a dictator unless we know that 
there will be a democratic government that will replace it 
instead of a radical Islamic government that wants to be allied 
with people who want to hurt us.
    And that is why when that plane was shot down over Turkey, 
I assume that that plane would have ended up killing terrorists 
who want to kill us. And if that was the case, that was not 
something a friend of the United States should be doing as 
keeping alive those kind of people.
    Finally, let us note this: There are, as I said, I think, 
and it is clear, that there are people in Turkey, the 
opposition, loyal Turks, people who love their country, who are 
very concerned that their country is not becoming more 
democratic or it is actually becoming less democratic and that 
there are more controls on journalists than there were before. 
Clearly there is more control on journalists now than there 
were before.
    And also, on opposition, for example, the Gulenists, I 
guess that is how you pronounce it, and we have looked into 
those people and they were a very legitimate opposition. In any 
other democratic society, they would have been a perfectly 
acceptable part of the national debate.
    Erdogan's regime has declared them the enemy, and they have 
been arrested. They have been persecuted basically. And this is 
a group of people, yes, they have a tie of sort of a 
liberalization philosophy and a humanitarian philosophy, and 
they are Islamists, but having them repressed, I mean, they had 
basically been declared the enemy of the government there, just 
because they disagreed with what the government wants and is 
trying to educate people to an alternative. That is somewhat 
similar to the Falun Gong in China who are brutally repressed 
and actually murdered by the Chinese Government.
    These are things that we need to talk about, we need to 
bring out to public debate. And let us hope that--and I am 
going to close it with this--let us hope that Turkey does go in 
the right direction. For those of us who, over the years--and I 
have visited Turkey many, many times. During the Cold War, I 
visited Turkey many times and was so proud that they were 
standing with us at a time when it was the Soviet Union and not 
Russia.
    The Soviet Union had targeted Turkey. They were putting 
millions of dollars and undermining that government and their 
freedom and their independence as much as they possibly could 
do, and the Turkish people stood tall. And we shouldn't ever 
forget that unanimity we had, that support that we had when it 
really counted from the people of Turkey.
    So with that, we close the hearing. It is adjourned.
    [Whereupon, at 3:53 p.m., the subcommittee was adjourned.]

                                  
                                     

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
